<html>
<title> - NOMINATION OF VINCENT G. LOGAN TO BE SPECIAL TRUSTEE, OFFICE OF SPECIAL TRUSTEE FOR AMERICAN INDIANS, DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 113-213]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-213

NOMINATION OF VINCENT G. LOGAN TO BE SPECIAL TRUSTEE, OFFICE OF SPECIAL 

                     TRUSTEE FOR AMERICAN INDIANS, 
                       DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

87-132 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 11, 2013................................     1
Statement of Senator Barrasso....................................     4
Statement of Senator Cantwell....................................     1
Statement of Senator Tester......................................    27

                               Witnesses

Bighorse, Hon. Scott, Assistant Principal Chief, Osage Nation....     2
    Prepared statement...........................................     3
Logan, Vincent G., Nominee to be Special Trustee, Office of 
  Special Trustee for American Indians, U.S. Department of the 
  Interior.......................................................     4
    Prepared statement...........................................     6
    Biographical information.....................................    10

 
NOMINATION OF VINCENT G. LOGAN TO BE SPECIAL TRUSTEE, OFFICE OF SPECIAL 
                     TRUSTEE FOR AMERICAN INDIANS, 
                       DEPARTMENT OF THE INTERIOR

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:00 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Indian Affairs Committee will 
come to order.
    We are here today on two different issues. One is the 
nomination of Vince Logan to be the Special Trustee for 
American Indians, U.S. Department of the Interior. Mr. Logan 
was nominated on February 27th of this year by President Obama 
and the full nomination packet was received by the Committee on 
July 23rd. The American Indian Trust Fund Management Reform Act 
that created the position of Special Trustee was passed in 
1994, and is a response to concerns regarding the Department of 
Interior's trust management practices. These concerns include 
the inability to provide accounting of balances to 
beneficiaries, a lack of trained staff and an inadequate record 
of keeping systems.
    Currently, the Department of Interior holds 56 million 
acres of land in trust for tribes and individuals, and the 
Department manages approximately $4.4 billion in trust funds, 
generated by leases, resource development royalties, use 
permits, judicial settlement and judgments. In fiscal year 
2012, almost $500 million was collected for 387,000 individual 
Indian accounts and nearly $1.4 billion was collected for the 
250 tribal accounts.
    President Obama's Administration has made significant 
progress in improving the management of Indian assets. This 
includes settling lawsuits with over 40 tribes, and most 
notably, the final settlement agreement in the 16-year long 
Cobell v. Salazar litigation.
    But despite these achievements, much work remains to be 
done. This nomination hearing is about discussing that 
remaining work with Mr. Logan and his plans to continue making 
progress on behalf of Indian Country. The Committee is also 
interested in the Commission on Indian Trust Administration and 
Reform established by then-Secretary Salazar. I am sure the 
Commission's findings will have a number of recommendations 
that the Secretary will want to implement. And these changes 
will likely rely on the leadership that will be provided by the 
Special Trustee.
    If confirmed, Mr. Logan would be the fourth person to hold 
the position of Special Trustee for American Indians. We look 
forward to hearing his ideas on how to improve the trust 
service that the Federal Government provides to Indian Country. 
Hopefully we can finally move past the need for trust reform 
and focus efforts solely on trust asset management and 
financial growth for tribal and individual beneficiaries.
    So now I would like to see if my colleague, Senator Tester, 
has any opening statements. I know my colleague, the Vice 
Chairman, is probably on his way. But maybe before that we 
would allow the Honorable Scott Big Horse, Assistant Principal 
Chief of the Osage Nation, who is here to introduce our 
nominee, say a few words.

 STATEMENT OF HON. SCOTT BIGHORSE, ASSISTANT PRINCIPAL CHIEF, 
                          OSAGE NATION

    Mr. Bighorse. Thank you, Madam Chairwoman. Vice Chairman 
Barrasso isn't here, and I want to say good morning, or 
afternoon, to Mr. Tester, members of the Committee. Thank you 
for the opportunity to appear before this Committee to 
introduce Vincent Logan, one of our Osage tribal members, to 
this Committee and the United States Senate.
    I am Scott Bighorse, the Assistant Principal Chief of the 
Osage Nation. It is an honor for me to be here. Principal Chief 
John Red Eagle was unable to be here because of business back 
home. We have had a lot of tragedies and a lot of deaths here 
in the past couple of months. But he does ask that his letter 
of support be entered into the record on behalf of Mr. Logan.
    Let me first give you some background on the Osage Nation, 
because Vince Logan's story is a story of the Osage Nation and 
its people. The Osage Nation is a sovereign Indian nation based 
in Pawhuska, Oklahoma. Our current homeland, the Osage 
Reservation, is about one and a half million acres located in 
northeastern Oklahoma. It is contiguous with Osage County, 
Oklahoma, realigned into what is our last reservation from our 
former reservation in Kansas and our aboriginal territories 
that covered almost all of Missouri, parts of Arkansas, Kansas 
and Oklahoma.
    The Osage Nation has signed several treaties with the 
United States and Congress has passed several special statutes 
that addressed our homelands and rights as a tribal nation. We 
came to the new reservation in Oklahoma only after one of our 
leaders, Wa Tenka, first visited the land and came back to our 
people and told them that there is something in the land that 
would keep our elders and children from starvation. As you 
know, many tribes were moved into Oklahoma and were on the 
brink of starvation. Our people relied on Wa Tenka and agreed 
to move to the Indian territory.
    Many of our people have interpreted Wa Tenka's prophecy to 
mean the vast oil reserves that were discovered beneath the 
surface of the land after we arrived to our reservation. Our 
leaders today understand that it may have been the oil that 
they were talking about, but it is truly the sovereignty that 
we hold within our reservation.
    Madam Chairwoman, Vince Logan is a direct descendant of Wa 
Tenka. Mr. Logan understands the trust relationship that both 
the Osage Nation and Osage individuals have with the United 
States Government. He understands that our Nation and our 
people have come to rely on this trust relationship and we have 
acted to enforce it when necessary.
    Vince Logan also understands that tribal governments are 
sovereigns that make laws and are self-governing and a sound, 
productive trust relationship means listening to the leaders of 
the tribal governments, to the individual Indians who are 
directly impacted by the trust relationship. He also 
understands that these trust systems have failed Indian Country 
on many occasions, and the systems need reform.
    Vince Logan, a man whose family primarily comes from the 
Zonzoli district of the Osage Reservation, is well qualified to 
serve as the special trustee. His professional background as an 
attorney in investment management would serve him well in this 
position. This office has been without a Special Trustee for 
far too long. As the Trust Commission continues its work and 
decisions will be made about reforming the Federal trust system 
that has been broken for decades, individual Indians need a 
leader and an expert that is willing to listen and act for the 
betterment of Indians and Indian tribes.
    Madam Chairwoman, the Osage Nation believes that Vince 
Logan is the right leader and the right person for this 
challenge. I strongly encourage this Committee to move this 
nominee forward and for the full Senate to confirm him as 
Special Trustee for American Indians.
    [The prepared statement of Mr. Bighorse follows:]

 Prepared Statement of Hon. Scott Bighorse, Assistant Principal Chief, 
                              Osage Nation
    Chairwoman Cantwell, Vice Chairman Barrasso, Members of the 
Committee, thank you for the opportunity to appear before this 
Committee to introduce Vincent Logan, one of our Osage tribal members, 
to this Committee and the United States Senate. I am Scott Bighorse, 
the Assistant Principal Chief of the Osage Nation, and it is an honor 
for me to be here. Principal Chief John Red Eagle is unable to be here 
because of business back home, but he asks that his letter of support 
be entered into the record.
    Let me first give you some background on the Osage Nation, because 
Vince Logan's story is a story of the Osage Nation and its people.
    The Osage Nation is a sovereign Indian nation based in Pawhuska, 
Oklahoma. Our current homeland, the Osage Reservation, is about 1.4 
million acres located in Northeastern Oklahoma and is contiguous with 
Osage County, Oklahoma. We arrived into what is our last reservation 
from our former reservation in Kansas, and our aboriginal territory 
covers parts of Missouri, Arkansas, Kansas, and Oklahoma. The Osage 
Nation has signed several treaties with the United States and Congress 
has passed several special statutes that address our homelands and 
rights as a tribal Nation.
    We came to the new reservation in Oklahoma only after one of our 
leaders, Wah-Ti-An-Kah, first visited the land and came back to our 
people and told them that there is something in the land that would 
keep our elders and children from starvation. Our people relied on Wah-
Ti-An-Kah and agreed to move to the Indian Territory.
    Many of our people have interpreted Wah-Ti-An-Kah's prophecy to 
mean the vast oil reserves that were discovered beneath the surface of 
the land after we arrived to our reservation. Our leaders today 
understand that he may have been talking about the sovereignty that is 
based in our homeland.
    Madam Chairwoman, Vince Logan is a direct descendant of Wah-Ti-An-
Kah. Vince Logan understands the trust relationship that both the Osage 
Nation and Osage individuals have with the United States. He 
understands that our Nation and our people have come to rely on this 
trust relationship, and we have acted to enforce it when necessary.
    Vince Logan also understands that tribal governments are sovereigns 
that make laws and are self-governing, and a sound, productive trust 
relationship means listening to the leaders of the tribal governments, 
to individual Indians, whose lives are directly impacted by the trust 
relationship.
    He also understands that these trust systems have failed Indian 
country on many occasions, and the systems need reform.
    Vince Logan, a man whose family primary comes from the Zon-Zo-Lin 
District of the Osage Reservation, is well qualified to serve as the 
Special Trustee. His professional background as an attorney and 
investment management would serve him well in this position.
    This Office has been without a Special Trustee for far too long. As 
the Trust Commission continues its work and decisions will be made 
about reforming the federal trust systems that have been broken for 
decades, individual Indians need a leader and an expert that is willing 
to listen and act for the betterment of Indians and tribes.
    Madam Chairwoman, the Osage Nation believes that Vince Logan is the 
right leader and the right person for this challenge, and I strongly 
encourage this Committee to move this nominee forward and for the full 
Senate to confirm him as Special Trustee for American Indians.

    The Chairwoman. Thank you, Chief Bighorse. Thank you so 
much for being here and for that introduction.
    Now I want to turn to the Vice Chairman of the Committee 
for any comments he would like to make before we turn to the 
witness.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Chair. I will just have 
my statement put into the record. I want to congratulate Mr. 
Logan on his nomination and look forward to working with him 
during this nomination process. I will have questions for Mr. 
Logan.
    Thank you, Madam Chairwoman.
    The Chairwoman. Thank you.
    Mr. Logan, welcome. Thank you for your willingness to 
serve. It is a pleasure to have you here before the Committee 
today. Go ahead with any comments or introductions you might 
want to make.

 STATEMENT OF VINCENT G. LOGAN, NOMINEE TO BE SPECIAL TRUSTEE, 
            OFFICE OF SPECIAL TRUSTEE FOR AMERICAN 
            INDIANS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Logan. Thank you, Madam Chairwoman, Vice Chairman 
Barrasso, Senator Tester. My name is Vincent Logan and my 
Osage, or Wah-zha-zhe, name is Hunka-zhe-na-zhe. I am honored 
to appear before you today seeking your confirmation for my 
nomination to serve as Special Trustee for American Indians.
    As a member of the Osage Nation, I am honored to have 
Assistant Principal Chief of the Osage Nation, Scott Bighorse, 
here to introduce me. Thank you, Assistant Chief. And with me 
today is my sister, Jeanine Logan, who traveled here from 
Oklahoma, and my partner, Dr. Steven Lieberman, who came down 
from New Jersey.
    Jeanine is an attorney with the Social Security 
Administration's Office of Disability Adjudication and Review 
in Oklahoma City and also serves as Associate Justice on the 
Osage Nation Supreme Court. Steven is Chief of Staff of the 
Veterans Affairs New Jersey Health Care System and has received 
numerous awards and commendations for his service to our 
heroes.
    Jeanine and Steven, through their many years of public 
service, have guided me in my professional career, and I would 
like to thank them both here today.
    I was born in Pawnee Indian Hospital in Oklahoma, raised in 
Norman, but have spent the majority of my life as a New Yorker. 
I received my education at Oklahoma State University, the 
University of Oklahoma College of Law and Columbia University 
School of International and Public Affairs. I come from a 
family dedicated to serving the public with military service 
and government service, which makes me both proud and humble. 
My parents served this Country during World War II and are 
interred not far from here at Arlington National Cemetery. My 
father, Oscar Logan, Jr., joined the United States Marine Corps 
and fought with the Fifth Division in Iwo Jima, where he was 
critically wounded. He was awarded the Purple Heart for his 
combat service. My mother, Della Morrell Logan, served in the 
United States Army during World War II, as a nurse stationed 
here in Washington.
    I am proud of my career in public service, which began with 
the State of Oklahoma Attorney General's Office in the Criminal 
Division. I also worked in the United States Department of 
Justice Antitrust Division here in Washington. I was also a 
corporate finance lawyer in New York for many years. In 2006, I 
moved to the asset side of the balance sheet when I became a 
financial advisor. I am currently an investment consultant 
working for tribal nations in economic development.
    My career, experience, and expertise are germane to the 
Office of Special Trustee for American Indians and to the 
position for which I am nominated in three distinct areas: law, 
investments, and of course, Native Americans. I spent 15 years 
as a corporate lawyer in New York specializing in finance. But 
I always sought a career working with Native Americans and 
Indian Country. I was at the Federal Indian Bar Conference one 
year and tribal leaders were asking me about assets and pricing 
on financial products. Frankly, I couldn't answer them at the 
time, I didn't know enough.
    But fortunately for me, I worked at Schulte Roth and Zabel 
in New York, which is one of the preeminent investment 
management law firms in the world. I spoke to partners about my 
concerns about tribal investing. It became clear at that time 
that I needed to learn the world of investments. I was picked 
to be part of the Merrill Lynch private banking and investment 
group, where I received excellent schooling and mentoring in 
key areas such as investment policy preparation, asset 
allocation, performance measurement, risk analysis and, above 
all, the fiduciary duties for investment advisors.
    However, and this is what I consider to be the most 
fulfilling aspect of my professional career, I have been part 
of the investment education movement in Indian Country. I have 
committed my business and offered my professional services to 
helping tribes learn the business of investments. My business 
value proposition is this: tribes should look at the university 
endowment model and even look at some of the sovereign wealth 
strategies, but only after edification in boardsmanship and 
governance, the adoption of investment guidelines and the 
building of internal capacity and capabilities.
    Further, and this has been equally fulfilling, I am 
committed to investment education for individuals, and 
particularly tribal youth. I have spent many years in Indian 
Country speaking to children, to Native kids candidly about 
money, savings and careers.
    The American Indian Trust Fund Management Reform Act of 
1994 created the Office of Special Trustee to improve the 
accountability and management of Indian funds held in trust by 
the Federal Government. As trustee, if I am confirmed, I will 
oversee the management of trust assets using my experience and 
knowledge to the best of my ability, bearing in mind that with 
respect to investments, there are a multitude of outside 
factors, many of which are organic and ever-changing.
    Furthermore, as to the trust principles of the Secretary, 
as stated in the departmental manual and published on the OST's 
website, if I am confirmed for this position, I will carry out 
my responsibilities as the Special Trustee with the duty of 
care of the highest level of competence, professionalism and 
thoroughness. If I am confirmed, I will act solely in the 
interest of the beneficiaries, and this applies to all of the 
obligations, duties and responsibilities that the OST has been 
given, granted and assigned.
    Madam Chairwoman, Vice Chairman Barrasso and Senator 
Tester, thank you for considering my nomination to this 
important position. I look forward to working with you and I am 
happy to answer any questions you may have.
    [The prepared statement and biographical information of Mr. 
Logan follow:]

Prepared Statement of Vincent G. Logan, Nominee to be Special Trustee, 
Office of Special Trustee for American Indians, U.S. Department of the 
                                Interior
    Thank you, Madam Chairwoman, Vice-Chairman Barrasso, and Members of 
the Committee. My name is Vincent Logan, and my Osage, or Wah-zha-zhe, 
name is Hunka-zhe-na-zhe. I am honored to appear before you today 
seeking your confirmation for my nomination to serve as Special Trustee 
for American Indians. As a member of the Osage Nation, I am honored to 
have Assistant Principal Chief of the Osage Nation Scott Bighorse here 
to introduce me. Thank you Assistant Chief.
    With me today are my sister, Jeanine Logan, who traveled here from 
Oklahoma, and my partner, Dr. Steven Lieberman, who came down from New 
Jersey. Jeanine is an attorney with the Social Security 
Administration's Office of Disability Adjudication and Review in 
Oklahoma City. Jeanine also serves as Associate Justice on the Osage 
Nation Supreme Court. Steven is Chief of Staff for the Veterans Affairs 
New Jersey Healthcare System. Steven has received numerous awards and 
commendations for his service to our heroes. Jeanine and Steven, 
through their many years of public service, have been an inspiration to 
me and have provided me guidance in my professional career, and I would 
like to thank them both here today.
    I was born in Pawnee Indian Hospital in Oklahoma, raised in Norman, 
but have spent the majority of my life as a New Yorker. I received my 
education at Oklahoma State University, the University of Oklahoma 
College of Law, and Columbia University's School of International 
Affairs.
    I come from a family dedicated to serving the public, both in 
military service and government service, which makes me both proud and 
humble. My parents served this country during World War II and are 
interred not far from here at Arlington National Cemetery. My father, 
Oscar Logan Jr., joined the United States Marine Corps and fought with 
the Fifth Division on Iwo Jima where he was critically wounded. He was 
awarded the Purple Heart for his combat service. He later worked for 
the Indian Health Service and for the Osage Nation. My mother, Della 
Morrell Logan, served in the United States Army during World War II as 
a nurse stationed here in Washington. After the war and while raising a 
family, she worked with State of Oklahoma Tax Commission and the Indian 
Health Service.
    As for my other siblings, my brother Joe, served as a Captain in 
the United States Marine Corps, and retired from a career in public 
service with the State of Oklahoma. My sister Grace also retired from 
public service with the State of Oklahoma. My brother Kyle is a public 
high school teacher in Oklahoma City.
    I am proud of my career in public service, which began after I 
graduated from law school and went to work for the State of Oklahoma 
Attorney General's Office in the Criminal Division. During the Clinton 
Administration, I worked in the United States Department of Justice, 
Antitrust Division, here in Washington.
    Since leaving the Department of Justice I have worked in the 
private sector. I was a corporate finance lawyer for many years in New 
York. In 2006 I moved to the asset side of the balance sheet when I 
became a financial advisor. I am currently an investment consultant 
working with tribal nations, not only in investment matters, but also 
in economic development. My career, experience and expertise are 
germane to the Office of the Special Trustee for American Indians and 
to the position for which I am nominated in three distinct areas: law, 
investments, and, of course, Native Americans.
    Let me begin by telling a brief story about how I came to the world 
of finance. I moved to New York to attend Columbia University. I 
arrived in the Big Apple full of optimism, a bit of fear and anxiety, 
and seeking a career in the international or diplomatic arena. But as 
they say, the best laid plans . . .. The wheels turned in another 
direction, and turned very fast for me. I was fortunate enough to be 
hired by law firm while in school and, as fate would have it, I was 
assigned to the shipping division. Being a son of the plains, and never 
on the ocean, I often used the word `boats', to the chagrin of my 
colleagues. Thus began my career in finance.
    I spent fifteen years in corporate law in New York, specializing in 
finance, mainly aircraft, shipping, and big ticket equipment. While I 
found that work very rewarding, I was always a bit disappointed that my 
career didn't involved Indian Country, and there was certainly no way 
of having a successful legal career in New York with a tribal business 
at that time.
    What happened next is what leads me to be seated in front of you 
today. I was attending the annual Federal Bar Indian Law Conference, 
and was at the luncheon. I was seated next to a tribal leader and he 
told me about his tribe's investments with a local bank. He said they 
didn't know anyone by name at the bank and certainly didn't know how 
the money was invested. He asked me if I knew anything about 
investments. And by coincidence, another tribal leader at the same 
table overheard our conversation and asked me if a fee of one hundred 
and fifty basis points was high, or was that usual for a tribal 
account. I couldn't answer them--and that is what I told them.
    I went back to New York puzzled, perplexed, call it what you will, 
by that conversation but definitely focused on finding out more about 
the investment industry, not because of intellectual curiosity, but 
because I could see on those men's faces that they were troubled by how 
the tribe's reserves were being managed.
    Fortunately, the law firm at which I then worked, Schulte Roth & 
Zabel, was and remains the pre-eminent investment management law firm 
in the world. I spoke to partners about my concerns with tribal 
investing and it became clear to me that if I wanted to be part of the 
tribal investment world, I would need to leave the legal world and move 
to the world of investment management.
    I needed training and licensing in the securities industry. I was 
picked to be part of the Merrill Lynch Private Banking & Investment 
Group program where I received excellent schooling and mentoring in key 
areas such as investment policy preparation, asset allocation, 
performance measurement, risk analysis, and above all, fiduciary duties 
for investment advisors.
    I have spent the last eight years in this industry and have worked 
with many clients, including several tribal nations, varying from small 
accounts to large tribal reserve funds. I have helped tribal leaders 
draft investment guidelines, select asset managers, collateralize 
tribal funds for casino expansion projects, and have provided general 
asset guidance. Over the years, I have heard of instances of credulity 
in investment decisions by some tribal officials and unscrupulous 
business practices, but personally, I have not witnessed that. Rather, 
I have seen investment decisions made with full understanding of the 
product and associated risk. That is the business approach I was taught 
and that is what I practice.
    As it turns out, after years in this industry, I have found that I 
am more quantitative and analytical in nature, which I have put to good 
use working for tribal nations. The investment industry is very 
complex, with many levels of expertise required, and the complexities 
and personalities are difficult to manage unless one has an advisor who 
puts his or her clients' interests first. I know I have always done so.
    However--and this is what I consider to be the most fulfilling 
aspect to my professional career--I have been part of the investment 
education movement in Indian Country. I have committed my business and 
offered my professional services to helping tribal leaders learn the 
business of investments. My business value proposition is this: tribes 
should look to the university endowment model in handling their 
investments, and even look at some of the sovereign wealth fund 
strategies, but only after edification in boardsmanship and governance, 
the adoption of investment guidelines, and building internal capacity 
and capabilities.
    Further--and this has been equally fulfilling--I am committed to 
investment education for tribal individuals and tribal youth. Having 
spent years throughout Indian Country I am acutely aware of the 
challenges our tribal people face, particularly our children. I speak 
to Native kids candidly about money, savings, and careers. I developed 
my own program called ``Your First Paycheck'' based on my own 
experience as a kid growing up in Oklahoma and getting my first 
paycheck through the Comprehensive Employment and Training Act program.
    A lack of financial guidance for youth, either in Indian Country or 
elsewhere in the United States, exacerbates many of the social ills we 
see. We also have a lack of guidance at home, or the ``dinner table 
talk'' as I call it, particularly in Indian Country, when parents can 
teach their children about money, work, and savings. Absent that, it is 
imperative--no, it is our duty as Indian Country investment 
professionals--to support and participate in financial education for 
tribal leaders and individuals. Our future is at stake, and the lack of 
investment knowledge will limit our capacity to build self-sustaining 
communities.
    As I mentioned earlier, I am a member of the Osage Nation. My 
ancestors include hereditary Chief William Penn and Way-Hu-Hah-Kah, 
both signers of the Constitution of the Great and Little Osages in 
1881. My great, great grandfather, Frank Corndropper, was a member of 
the original Osage Tribal Council and my ancestors have been a part of 
the Osage leadership since that time. Another ancestor is legendary 
Chief Wah-Ti-An-Kah, whose leadership and vision was critical to my 
people moving to Oklahoma.
    The discovery of oil under our reservation, and the resultant 
effects on our people and our land, are well-documented. The fact that 
the Osage mineral estate was put in trust in 1906, with the United 
States as Trustee, has to be considered one of the most important 
events in the tribal/federal relationship because of the shear 
magnitude of the wealth that was generated. Hundreds of millions of 
dollars in revenue have been distributed to the Osage people over the 
past hundred years or so, and billions more remain untapped. The Osage 
Mineral Trust is just one part of the heritage of my Osage people, but 
it's indisputably what we are most known for and what garners the most 
attention. The Osage people are well-aware we are inexorably linked to 
the United States because of this special trust relationship, as are 
many other tribal communities.
    There is certainly no need to discuss the importance of the special 
trust relationship between the United States and the various tribal 
nations, as this has been much discussed in this chamber and before 
this esteemed Committee, and it is, obviously, the reason we are here 
today. Let me merely state that I am well aware of the importance of 
the trust relationship and I would be most honored, if confirmed, to 
serve as the Special Trustee for American Indians.
    I do have a brief personal story about this special relationship. 
My first experience in hearing of the ``trust'' was in the 1960s when I 
went with my parents to the Osage Agency regarding an account issue. I 
recall meeting the Field Solicitor and hearing them discuss monies and 
accounts. Such was my introduction to this relationship. Furthermore, I 
have been a shareholder in the Osage Mineral Trust since 1986. As such, 
I'm acutely aware of the special relationship between the Osages, the 
United States vis-a-vis the Department of the Interior, as Trustee, and 
the Office of the Special Trustee for American Indians, or the ``OST'' 
as it's called.
    As for the history of the OST, I don't believe it is necessary to 
discuss in detail the efforts of the late Elouise Cobell or discuss the 
Cobell litigation and settlement, or the Osage Trust Case or any other 
tribal trust cases. Suffice it to say that these matters are well-
documented and have been a part of the Indian Country dialogue for many 
years.
    What I would like to consider is the OST going forward. The 
American Indian Trust Fund Management Reform Act of 1994 created the 
OST to improve the accountability and management of Indian funds held 
in trust by the Federal Government. As trustee, the Department of the 
Interior has the primary fiduciary responsibility to manage both tribal 
trust funds and Individual Indian Money accounts.
    One of the Secretary's trust responsibilities is to protect and 
preserve Indian trust assets. If confirmed as Special Trustee for 
American Indians, I will oversee the management of the trust assets 
using my experience and knowledge to the best of my ability, bearing in 
mind that, with respect to investments, there are a multitude of 
outside factors to consider, many of which are organic and ever 
changing.
    Going back to my training at Merrill Lynch, it is said that the 
first principle of investing is capital preservation and the foremost 
risk to an investor is inflation. These remain the basics of investing 
and this is the starting point industry-wide and certainly part of my 
investment approach. If confirmed, I will protect and preserve Indian 
trust assets from loss, damage, or depletion.
    Furthermore, as for the trust principles of the Secretary, as 
stated in the Departmental Manual and published on the OST's website, 
if I am confirmed for this position I will carry out my 
responsibilities as the Special Trustee with a duty of care of the 
highest level of competence, professionalism, and thoroughness. I will 
act solely in the interest of the beneficiaries and this applies to all 
of the obligations, duties, and responsibilities that the OST has been 
given, granted, and assigned. And I will work with and support the 
efforts of the Secretarial Commission on Indian Trust Administration 
and Reform.
    Madam Chairwoman, Vice-Chairman Barrasso, and Members of the 
Committee, thank you for considering my nomination to this important 
position. I look forward to working with you and I am happy to answer 
any questions that you may have.
                                 ______






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairwoman. Thank you, Mr. Logan. Again, thank you and 
welcome to your family that is here with you today.
    Obviously, after 20 years of reforms and litigation, do you 
have recommendations for Congress on what would help the 
Department carry out its trust responsibilities?
    Mr. Logan. Thank you, Senator, for that question. Obviously 
that is important to Native Americans, it is important to the 
United States. The fiduciary duty standard of care that is 
outlined by Congress in the Act is so important to all of us 
that I fully intend, if I am confirmed, to carry out those 
fiduciary duties to the highest level that I know and that I 
can, using my professional experience.
    I hope, and it is my desire to make sure that the Office of 
Special Trustee, if I am confirmed, continues with its work and 
we all understand that the fiduciary trust relationship is 
important to Native Americans and to the beneficiaries and 
tribal beneficiaries.
    The Chairwoman. What of the buyback program? How would you 
use the buyback program to help manage the trust assets?
    Mr. Logan. Thank you for that question. I know that 
question comes up often. It is important to Native Americans 
and to me personally. I must say that I am not a part of, 
obviously, Interior yet. A lot of the information is 
proprietary, and I wasn't able to see exactly how the OST would 
relate to the buyback program and, therefore, I am not quite 
familiar with the specific job tasks assigned to the OST and 
the land buyback program.
    But if I am confirmed, I am happy to learn more and look 
forward to working with you on that issue.
    The Chairwoman. Why do you want to have this position? What 
interests you in this position?
    Mr. Logan. When I first had discussions about this 
position, the part that caught my eye was financial education. 
That is in the mandate, and it is in the act as Congress put 
forth. As I said in my opening statement, that is a passion of 
mine, financial education, not only on the institutional side, 
with the tribal boards and tribal investment boards, but the 
real work is with children and Native youth. That is ultimately 
the future of our people.
    It is clear that the Office of Special Trustee, while there 
are fiduciary duties to the beneficiaries that are so 
important, part of the mandate is also financial education. I 
know that that is the thing that caught my attention, and that 
is what I am seeking here today, if I am confirmed, to work on 
that to the best of my ability. Ultimately that is part of the 
doctrine of self-governance and of the trust relationship.
    The Chairwoman. But you are aware of the huge 
responsibility and the litigation that has preceded you.
    Mr. Logan. Certainly, Senator. I am an individual account 
holder myself. And I have been following the trust relationship 
since I was a child. The first time I visited with my parents 
to the Osage Agency was in the 1960s. I remember my father 
talking to the tribal and department officials at the time 
about his account and lease monies. So frankly, I have been 
aware of it a long time. And I respect all the work that has 
been put forth to date, and I am certainly well aware of the 
Cobell settlement.
    But for now, what I am focused on in this position is the 
current Act as it stands, and fulfilling my fiduciary duties 
and obligations in the current Act.
    The Chairwoman. Okay. Vice Chairman Barrasso, do you have 
any questions?
    Senator Barrasso. I do, thank you very much, Madam 
Chairwoman.
    The Cobell settlement, which we are all well aware of, the 
Committee has spent a lot of time on it, established a $1.9 
billion fund for the land buyback program, you are familiar 
with that, the purpose to purchase and consolidate these 
fractional interests in trust lands. The programs can require 
appraisals, carried out by the Office of Special Trustee. And 
there can be over 90,000 tracts of this fractionated land.
    It is going to take some time and it could be costly to put 
this all together. So I am just wondering what kind of a role 
you would see tribes having in assisting in the appraisals, 
conducting the appraisals and help there, and if you do see a 
role at all.
    Mr. Logan. Thank you for that question, Senator. As an 
account holder myself and a member of the Osage Nation, the 
role that the tribal community can put forth is through 
leadership and participation and consultation. The local 
communities know the land well, that is true for the Osage and 
I am sure that is true around the Country and in your State as 
well, and for your constituents.
    As I said earlier, I am aware of the appraisal piece to the 
Office of Special Trustee, but beyond that, I haven't really 
lifted the hood and taken a peek in there to see exactly how it 
is going to work. But I am here to say that I am eager to learn 
more.
    Senator Barrasso. You said the things that you knew a lot 
about you can bring to the table, law, investment and Native 
American issues. As we try to grapple with all of this, do you 
see different levels in terms of participation, of tribal 
financial literacy as you go from tribe to tribe and try to 
make some decisions?
    Mr. Logan. Yes. I have seen that in my career. As an 
institutional advisor, I have experienced tribes that were 
further down the road, that is for certain, they had 
established investment committees. We had, in my business, 
directed our efforts toward bringing those up to speed with 
traditional institutional advisory levels. That would be 
adoption of investment guidelines and plans.
    But the majority of it, that was not the case. The 
investments were handled just locally, by a local financial 
advisor. And coming from New York and with institutional 
background, it was somewhat challenging to move the ball toward 
more institutional investments.
    But I will say one thing. Every time I was out there, and I 
visited tribes in your State, in all three States, in fact, it 
was possible, I did see people, no one was against it, they 
always said yes, but we need help. As a small business owner, 
it was not possible to provide those kinds of resources, but I 
know it is possible.
    Senator Barrasso. In terms of other things that could be 
possible, just your thoughts on this, this was a response to 
the Committee questionnaire to you. You noted that restoring 
the trust of beneficiaries is a key challenge for the Office of 
Special Trustee. Possible, but I am just going to ask you 
specifically, because you cited the Office's litigation 
history, and the law is something that you know about, as a 
reason for some of these concerns and the loss of trust that 
you referred to in your written questions.
    How do you intend to try to restore the trust and the 
confidence for the beneficiaries?
    Mr. Logan. Thank you for that question. Of course, when I 
wrote that, I was coming as an individual account holder. And 
my experience, with the Office of Special Trustee, was quite 
good. Personally I saw appraisals, I called the trust 
beneficiary call center twice and had immediate responses and 
satisfaction.
    But I know that a lot of the other individual account 
holders, that was probably not their experience.
    But I would say this, trust has to be earned. That is true 
in all businesses and in government. It comes through and is 
driven through leadership. That is why I am here before you 
today. Not only if I am confirmed to be the trustee, I will 
also be an advocate for and on behalf of the beneficiaries, and 
in turn, I will work to gain their trust as their trustee.
    Senator Barrasso. Thank you. Thank you, Madam Chairwoman.
    The Chairwoman. Senator Tester, any questions for this 
witness?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, very quickly.
    You are a smart guy, first of all. Thank you for being 
willing to serve.
    From the 30,000 foot level, tell me what your definition of 
the trust relationship is. A lot of people in Congress aren't 
even aware that there is a trust relationship. So from 30,000 
feet, tell me what your definition of that relationship would 
be.
    Mr. Logan. Thank you for that question. I am going to speak 
as an Osage. The Assistant Chief laid out the history of our 
people. And that relationship between the Osage and the United 
States Government is what I consider one of the most important 
relationships there is.
    It wasn't a matter of trust in the sense of a private 
sector or trust company.
    Senator Tester. Different kind of trust.
    Mr. Logan. Right. It is a matter of that things were being 
done on your behalf, that the land was being taken care of, 
that whatever the actions of the Federal Government were being 
done, they were being done properly and they were being done 
professionally. That was in fact, for many in the Native 
American community, that was lost, you are absolutely right.
    You asked about what I see from above. I can tell you have 
that as a professional, it is difficult for me to look at the 
history as an investment professional and as an attorney and 
not know that there was a loss of trust. It is just going to be 
very difficult to regain that trust.
    But I will say that I am an optimist. I am an optimist by 
nature. And looking at it through one lawyer eye and one 
investment professional eye, I know it is possible, as I said. 
But no doubt it is clear, through the Cobell litigation that 
has been discussed in this room many times, it is going to be 
difficult.
    Senator Tester. Yes, and that is what the next hearing is 
going to be about. You said something that was very important 
in that the local tribes knew the value of the land better than 
anybody. I think we ought to be taking into consideration, you 
ought to be looking to them for help. I know you are not long 
on staff, anyway, so it might be an opportunity to offload some 
of those duties, and hold them accountable in the process.
    Thank you, Madam Chair.
    The Chairwoman. Thank you. That concludes this hearing.
    Again, Mr. Logan, we hope to move your nomination very 
quickly here and get you working toward resolving many, many 
issues. This part of the hearing is adjourned.
    [Whereupon, at 2:25 p.m., the Committee proceed to other 
business.]

                                  <all>

</pre></body></html>
